                                    February 25, 2000

                                    JOHN A. RAPP
                                    VICE PRESIDENT, FIELD OPERATIONS SUPPORT

                                    SUBJECT:	 Assignment of Postal Service Vehicles for
                                              Maintenance Services
                                              (Report Number DS-MA-00-002)

                                    This management advisory report presents our observations
                                    regarding actions necessary to correct practices we
                                    identified during our survey of delivery operations (Project
                                    Number 99PF007DS002). We are providing this report so
                                    action can be taken to correct the problems we identified.

Results In Brief                    The Postal Service did not always assign vehicles to
                                    maintenance facilities in the most efficient manner.
                                    Specifically, at three of ten1 area offices, we found that
                                    vehicles were not always sent to the nearest maintenance
                                    facility when service was required. Also, mechanics were
                                    used to transport vehicles to maintenance facilities instead
                                    of repairing and maintaining vehicles. These practices are
                                    not efficient, or cost effective. We suggest the vice
                                    president, Field Operations Support issue guidance to area
                                    offices to improve vehicle maintenance assignments and
                                    reduce vehicle transportation costs. Management indicated
                                    agreement with our suggestion and the planned actions
                                    should help to improve vehicle maintenance assignments
                                    and reduce transportation costs.

Objectives, Scope 	                 The objectives of our survey were to obtain an
and Methodology	                    understanding of delivery operations and identify programs,
                                    activities, functions, and organizations associated with the
                                    delivery function. We conducted the review from
                                    September 1999 through February 2000 in accordance with
                                    the President’s Council on Integrity and Efficiency, Quality
                                    Standards for Inspections. In completing our review, we

1
    We contacted 10 of the 11 area offices. The Great Lakes Area did not respond to several requests for information.




                                                Restricted Information
Assignment of Postal Service Vehicles                                                  DS-MA-00-002
 for Maintenance Services


                                  conducted interviews, obtained, and reviewed financial
                                  records, and reviewed Postal Service policies and
                                  procedures.

Postal Service                    The Postal Service owns over 200,000 vehicles consisting
Vehicle Fleet                     of Jeeps, long life vehicles, cargo vans, tractors, trailers,
                                  Inspection Service vehicles, plant and equipment vehicles
                                  and others. These vehicles are assigned to over 7600
                                  locations throughout the nation. To provide maintenance
                                  support for the fleet, the Postal Service established 332
                                  vehicle maintenance facilities. In fiscal year (FY) 1999
                                  these maintenance facilities employed over 5400 personnel
                                  and incurred about $811 million in operating expenses.

Scheduling Vehicles               The Postal Service did not always assign vehicles to
For Maintenance                   maintenance facilities in the most efficient manner. During
                                  the survey, Postal Service officials stated there were
                                  numerous situations across the nation where vehicles were
                                  transported to distant vehicle maintenance facilities
                                  although a closer facility existed. To determine the extent of
                                  this practice, we conducted an informal survey of ten area
                                  offices. We found that three area offices2 had locations that
                                  did not assign vehicles to the nearest maintenance facility.
                                  To illustrate, in the Midwest Area, 188 vehicles assigned to
                                  35 locations were sent to a maintenance facility in Kansas
                                  City, Missouri, although nearer maintenance facilities exist
                                  in St. Louis, Missouri, and Memphis, Tennessee. For
                                  example, 41 vehicles in Cape Girardeau were transported
                                  350 miles to Kansas City, but the maintenance facility in St.
                                  Louis is only 115 miles away. The 188 vehicles were driven
                                  over 7000 additional miles because they were sent to
                                  Kansas City instead of the nearest facility.

Significant                       Based on available records, we could not identify the
Transportation Costs              specific savings that could be realized by transporting
                                  vehicles to the closest facility. However, Postal Service cost
                                  reports reflect that maintenance transportation costs are
                                  significant. During FY 1999 the Postal Service spent nearly
                                  $21 million to transport vehicles to maintenance facilities. In
                                  the Southeast Area alone, shuttle costs for FY 1999 were
                                  more than $3.5 million dollars.



2
    Midwest, Allegheny, and Northeast



                                                      2
                                           Restricted Information
Assignment of Postal Service Vehicles                                              DS-MA-00-002
 for Maintenance Services


Mechanics Used to             Postal Service personnel at maintenance facilities haul, tow,
Transport Vehicles            or drive vehicles from assigned locations to maintenance
                              facilities. Postal Service cost reports showed that
                              mechanics were primarily used to transport the vehicles.
                              For example, the report for accounting period 2 in FY 2000
                              indicated that mechanics spent about 42,000 hours
                              transporting vehicles. The same report reflects that garage
                              men spent about 8500 hours and clerks spent 104 hours.
                              Some maintenance facilities used contractors, instead of
                              Postal Service personnel, to transport vehicles. In fact, the
                              Northeast Area office developed a spreadsheet to
                              determine when it was more cost effective to use
                              contractors. Other maintenance facilities were reluctant to
                              use contractors because unions favor using Postal Service
                              employees to shuttle vehicles.

                              The Postal Service can achieve savings transporting
                              vehicles to the nearest maintenance facility, obtaining
                              contractors to transport vehicles when cost effective, and
                              using personnel other than mechanics to transport vehicles
                              when other Postal Service employees are available. Also,
                              by using personnel other than mechanics to transport
                              vehicles, the Postal Service would use mechanics more
                              effectively since they would be available to maintain and
                              repair Postal Service vehicles.

Suggestion                    To help the Postal Service improve vehicle maintenance
                              assignments and reduce vehicle transportation costs, we
                              suggest the vice president, Field Operations Support, issue
                              guidance that requires area offices to:

                                  a) Assign vehicles to the nearest maintenance facility
                                     when maintenance is required, when feasible.

                                  b) Use contractors to provide shuttle services when it is
                                     cost effective considering the union’s position.

                                  c) Use personnel other than mechanics to transport
                                     vehicles to maintenance facilities when it is practical.




                                                   3
                                        Restricted Information
Assignment of Postal Service Vehicles                                          DS-MA-00-002
 for Maintenance Services



Summary of                    Management indicated agreement with the observation and
Management’s                  suggestion and stated that the manager, Vehicle Delivery
Comments                      Operations would recommend to field operations that
                              consideration be given to assigning vehicles for
                              maintenance to the nearest vehicle maintenance facility. In
                              addition, the manager would request, through area
                              management, that all vehicle maintenance facilities
                              complete a thorough review of their current vehicle shuttle
                              process and implement the use of contractors to shuttle
                              vehicles when cost effective. Further, the manager would
                              remind the vehicle maintenance facility managers that every
                              effort be made to use the mechanics to complete
                              maintenance and repair tasks and to explore alternatives
                              before using them to transport vehicles. Management’s
                              comments, in their entirety, are included in the appendix.

Evaluation of                 Management’s comments are responsive to our suggestion
Management’s                  and the planned actions should help to improve vehicle
Comments                      maintenance assignments and reduce transportation costs.

                              We appreciate the cooperation and courtesies provided by
                              your staff during the survey. If you have any questions,
                              please contact me at (703) 248-2300.


                              //Signed//
                              Richard F. Chambers
                              Assistant Inspector General
                                for Performance

                              cc: 	 Clarence E. Lewis, Jr.
                                    John R. Gunnels




                                                   4
                                        Restricted Information
Assignment of Postal Service Vehicles                            DS-MA-00-002
 for Maintenance Services


                         APPENDIX. MANAGEMENT’S COMMENTS




                                                   5
                                        Restricted Information
Assignment of Postal Service Vehicles                            DS-MA-00-002
 for Maintenance Services




                                                   6
                                        Restricted Information
Assignment of Postal Service Vehicles                            DS-MA-00-002
 for Maintenance Services



Major Contributors to
This Report




                                                   7
                                        Restricted Information
